CERTIFICATE OF COMPLIANCE

Johlen and Melissa Johnson,
v.

Jp Morgan Chase Bank, N.A.
As required by Supreme Court Rule 33.1(h),
I certify the petition for a writ of certiorari
contains 2858 words excluding the parts of the
petition that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the
foregoing is true and Correct.

February 15, 2021
/s/ Melissa Johnson
Melissa Johnson
mjandassociates9@gmail.com
1668 Alta Vista Road
Bullhead City, Arizona
96442

RECEIVED
MAR - 8 2021

SagaaiMg

